uoohh

rtppeai: ia-/u^o

UOU. ^ I

meu: u^/ i»/^u

ry: i 01 o

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7043

MICHAEL ANTHONY DOBSON,
Plaintiff - Appellant,
v.

COLIN D. STOLLE, Commonwealth’s Attorney’s Office of Virginia Beach; MR.
BERNARD W. BOOKER, Warden Buckingham Correctional Center; SCOTT
LANG, Assistant Commonwealth’s Attorney City of Virginia Beach; MS.
PATRICIA MUNLEY, Investigator for the Commonwealth’s Attorney’s Office of
Virginia Beach; DEREK M. REED, Detective Virginia Beach Police Department;
MR. PHILIP WHITE, Assistant Warden Green Rock Corr. Center; MR. TOD
WATSON, Special Investigator Unit V.D.O.C. Buckingham Corr. Center,
Defendants - Appellees.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. Michael F. Urbanski, Chief District Judge. (7:18-cv-00369-MFU-RSB)

Submitted: February 3, 2020

Decided: Febmary 19, 2020

Before QUATTLEBAUM and RUSHING, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.

Michael Dobson, Appellant Pro Se. Jeff W. Rosen, PENDER & COWARD, PC, Virginia
Beach, Virginia; Joseph Martin Kurt, Assistant City Attorney, OFFICE OF THE CITY

uo^Avt /Appeal: i»-/u«+o

l»ou:

i

ry: £. ui o

rneu: va

ATTORNEY FOR THE CITY OF VIRGINIA BEACH, Virginia Beach, Virginia, for
Appellees.
Unpublished opinions are not binding precedent in this circuit.

2

uourtH Mppeai: i»-/u40

uuc: z, i

rneu: \j/li ia//:u^u

ry; o 01 o

PER CURIAM:
Michael Dobson appeals the district court’s order granting Defendants’ motions to
dismiss his 42 U.S.C. § 1983 (2012) complaint pursuant to Fed. R. Civ. P. 12(b)(6). We
have reviewed the record and find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. Dobson v. Stolle, No. 7:18-cv-00369-MFU-RSB (W.D.
Va. July 9, 2019). We deny Dobson’s motion for a certificate of appealability and for
appointment of counsel and dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

3

uouM't Mppeai; i»-/u*to

meu: uz/1 a/zu^u

uuc: /L£- i

ry: i 01 i

i oiai rayes:v i 01

FILED: February 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7043
(7:18-cv-00369-MFU-RSB)

MICHAEL ANTHONY DOBSON
Plaintiff - Appellant
v.
COLIN D. STOLLE, Commowealth's Attorney's Office of Virginia Beach; MR.
BERNARD W. BOOKER, Warden Buckingham Correctional Center; SCOTT
LANG, Assistant Commonwealth's Attorney City of Virginia Beach; MS.
PATRICIA MUNLEY, Investigator for the Commonwealth's Attorney's Office of
Virginia Beach; DEREK M. REED, Detective Virginia Beach Police Department;
MR. PHILIP WHITE, Assistant Warden Green Rock Corr. Center; MR. TOD
WATSON, Special Investigator Unit V.D.O.C. Buckingham Corr. Center
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

hj

uoomh

Mppeai: la-zu^to

rneu; va iy/zu^u

uou;

ry; i 01 o

i uiai rayes:^ 01 h)

FILED: February 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7043,

Michael Dobson v. Colin Stolle
7:18-cv-00369-MFU-RSB

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please be
advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: To be timely, a petition for certiorari
must be filed in the United States Supreme Court within 90 days of this court's entry of
judgment. The time does not run from issuance of the mandate. If a petition for panel
or en banc rehearing is timely filed, the time runs from denial of that petition. Review
on writ of certiorari is not a matter of right, but of judicial discretion, and will be
granted only for compelling reasons, ('www.supremecourt.gov')
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED COUNSEL:
Vouchers must be submitted within 60 days of entry of judgment or denial of
rehearing, whichever is later. If counsel files a petition for certiorari, the 60-day period
runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is being made from
CJA funds, counsel should submit the CJA 20 or CJA 30 Voucher through the CJA
eVoucher system. In cases not covered by the Criminal Justice Act, counsel should
submit the Assigned Counsel Voucher to the clerk's office for payment from the
Attorney Admission Fund. An Assigned Counsel Voucher will be sent to counsel
shortly after entry of judgment. Forms and instructions are also available on the court's
web site, www.ca4.uscourts.gov. or from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment. (FRAP
39, Loc. R. 39(b)).

1
/

FILED: May 11, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7043
(7:18-cv-00369-MFU-RSB)

MICHAEL ANTHONY DOBSON
Plaintiff - Appellant
v.
COLIN D. STOLLE, Commowealth's Attorney's Office of Virginia Beach; MR.
BERNARD W. BOOKER, Warden Buckingham Correctional Center; SCOTT
LANG, Assistant Commonwealth's Attorney City of Virginia Beach; MS.
PATRICIA MUNLEY, Investigator for the Commonwealth's Attorney's Office of
Virginia Beach; DEREK M. REED, Detective Virginia Beach Police Department;
MR. PHILIP WHITE, Assistant Warden Green Rock Corr. Center; MR. TOD
WATSON, Special Investigator Unit V.D.O.C. Buckingham Corr. Center
Defendants - Appellees

ORDER

The court denies the motion to reconsider and denies the petition for
rehearing and rehearing en banc. No judge requested a poll under Fed. R. App. P.
35 on the petition for rehearing en banc.

FILED: March 4, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7043
(7:18-cv-00369-MFU-RSB)

MICHAEL ANTHONY DOBSON
Plaintiff - Appellant
v.
COLIN D. STOLLE, Commowealth's Attorney's Office of Virginia Beach; MR.
BERNARD W. BOOKER, Warden Buckingham Correctional Center; SCOTT
LANG, Assistant Commonwealth's Attorney City of Virginia Beach; MS.
PATRICIA MUNLEY, Investigator for the Commonwealth's Attorney's Office of
Virginia Beach; DEREK M. REED, Detective Virginia Beach Police Department;
MR. PHILIP WHITE, Assistant Warden Green Rock Corr. Center; MR. TOD
WATSON, Special Investigator Unit V.D.O.C. Buckingham Corr. Center
Defendants - Appellees

STAY OF MANDATE UNDER
FED. R. APP. P. 41(d)(1)
Under Fed. R. App. P. 41(d)(1), the timely filing of a petition for rehearing
or rehearing en banc or the timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for rehearing or rehearing en banc

or motion to stay. In accordance with Rule 41(d)(1), the mandate is stayed pending
further order of this court.

/s/Patricia S. Connor, Clerk

FILED: May 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7043
(7:18-cv-00369-MFU-RSB)

MICHAEL ANTHONY DOBSON
Plaintiff - Appellant
v.
COLIN D. STOLLE, Commowealth's Attorney's Office of Virginia Beach; MR.
BERNARD W. BOOKER, Warden Buckingham Correctional Center; SCOTT
LANG, Assistant Commonwealth's Attorney City of Virginia Beach; MS.
PATRICIA MUNLEY, Investigator for the Commonwealth's Attorney's Office of
Virginia Beach; DEREK M. REED, Detective Virginia Beach Police Department;
MR. PHILIP WHITE, Assistant Warden Green Rock Corr. Center; MR. TOD
WATSON, Special Investigator Unit V.D.O.C. Buckingham Corr. Center
Defendants - Appellees

MANDATE
The judgment of this court, entered February 19, 2020, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule 41(a)
of the Federal Rules of Appellate Procedure.
/s/Patricia S. Connor, Clerk

FILED: February 25, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7043
(7:18-cv-00369-MFU-RSB)

MICHAEL ANTHONY DOBSON
Plaintiff - Appellant
v.
COLIN D. STOLLE, Commowealth's Attorney's Office of Virginia Beach; MR.
BERNARD W. BOOKER, Warden Buckingham Correctional Center; SCOTT
LANG, Assistant Commonwealth's Attorney City of Virginia Beach; MS.
PATRICIA MUNLEY, Investigator for the Commonwealth's Attorney's Office of
Virginia Beach; DEREK M. REED, Detective Virginia Beach Police Department;
MR. PHILIP WHITE, Assistant Warden Green Rock Corr. Center; MR. TOD
WATSON, Special Investigator Unit V.D.O.C. Buckingham Corr. Center
Defendants - Appellees

ORDER

Upon consideration of submissions relative to the motion for protective
custody and the motion to add newly discovered evidence, the court denies the
motions.
For the Court—By Direction
/s/ Patricia S. Connor. Clerk

Entered at the direction of the panel: Judge Quattlebaum, Judge Rushing,
and Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MICHAEL A. DOBSON,
Plaintiff,
v.
COLIN D. STOLLE, etaL,
Defendants.

)
)
)
)
)
)
)

Civil Action No. 7:18cvOG369
ORDER
By: Michael F. Urbanski
Chief United States District Judge

This matter is before the court on Dobson’s motion pursuant to Federal Rule of Civil
Procedure 59(e). Dobson asks the court to alter or amend its memorandum opinion and order
granting defendants’ motion to dismiss Dobson’s civil rights complaint filed pursuant to 42
.U.S.C. § 1983. Rule 59(e) allows a court to alter or amend a judgment “(1) to accommodate an
intervening change in controlling law; (2) to account for new evidence not available
[previously]; or (3) to correct a clear error of law or prevent manifest injustice.” Pac. Ins. Co. v.
Am. Nat’l Fire Ins. Co.. 148 F.3d 396, 403 (4th Cir. 1988). “Rule 59(e) motions may not be
used, however, to raise arguments which could have been raised prior to the issuance of the
judgment, nor may they be used to argue a case under a novel legal theory that the party had the
ability to address in the first instance.” Id; “If a party relies on newly discovered evidence in its
Rule 59(e) motion, the party must produce a legitimate justification for not presenting the
evidence during the earlier proceeding.” Id. (internal citations omitted). The purpose of a Rule
59(e) motion is not to give “an unhappy litigant one additional chance to sway the judge.”
Durkin v. Taylor. 444 F. Supp. 879, 889 (E.D. Va. 1977). In general reconsideration of a
judgment after its entry is an extraordinary remedy which should be used sparingly. Pac. Ins.
Co.. 148 F.3d at 403 (internal citations omitted).

Dobson cites no changes to the law, presents no evidence that post-dates the dismissal
order, and fails to demonstrate “a clear error of law or [] manifest injustice.” Having reviewed
the record, the court concludes that Dobson is not entitled to relief under Rule 59(e) and,
therefore, it is hereby ORDERED that Dobson’s motion for reconsideration (ECF No. 81) is
DENIED.
The Clerk shall send a copy of this order to the parties.
ENTER: This ^ ^^ay of July, 2019.

Chief United States District Judge

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION

CLERK'S OFFICE.U.S. DIST. COUF
AT ROANOKE, VA
' FILED

JUL 0 9 2019
,

MICHAEL ANTHONY DOBSON,
Plaintiff

)

JULIA C^GUDLEY, CLERK
BY:

CASE NO. 7:18-CV-00369

)
- )

v.

)
)

COLIN D. STOLLE, et ah,
Defendants

)
)

By: Hon. Michael F. Urbanski
Chief United States District Judge

MEMORANDUM OPINION
Michael Anthony Dobson, currently incarcerated at Red Onion State Prison, complains
that he is suffering an ongoing violation of his constitutional rights. Proceeding pro se,
■Dobson filed this lawsuit seeking relief via 42 U.S.C. § 1983. Defendants Scott Lang, Patricia
4 \

Munley, and Colin D. Stolle (the Commonwealth defendants), filed a motion to dismiss on
November 1, 2018. ECF No. 24. Defendants Bernard T. Booker, Tod Watson, and Philip

t

White (the BCC defendants), filed a motion to dismiss on November 6, 2018. ECF No. 32.
Defendant Derek M. Reed filed a motion to dismiss on November 29, 2018. ECF No. 41.
Also pending is Dobson’s motion to amend pleadings. ECF No. 50. The parties have fully
briefed the issues.
For the reasons set forth below, Dobson’s motion to amend is GRANTED; the
motions to dismiss are GRANTED; and Dobson’s federal causes of action are DISMISSED.
The. court to declines to exercise jurisdiction over Dobson’s state law causes of action.

r
uutRJCS OFFICE U.s. DIST. COUl
AT ROANOKE, VA
PILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MICHAEL ANTHONY DOBSON,
Plaintiff
v.

COLIN D. STOLLEj et aL,
Defendants

*

JUL ff'fl 2019
Julia odudley, clerk
by;

)

CASE NO. 7:18-CV-00369

)
)
)
)
)
)

By: Hon. Michael F. Ufbanski
Chief United States District Judge

ORDER
In accordance with the accompanying memorandum opinion, it. is hereby
ADJUDGED AND ORDERED that the plaintiffs motion to amend. (ECF No. 50) is
GRANTED. The motions to dismiss (ECF Nos. 24, 32, 41) are GRANTED, and the
plaintiffs complaint for violation of constitutional rights brought pursuant to 42 U.S.C. § 1983
is DISMISSED, and the clerk shall STRIKE this action from the active docket of the court.

ENTERED:

_ 2^0 /^
/

M

if*

MichaeUKUrbanski
Chief^mited States District Judge

Accordingly, the motion to dismiss filed by defendants Scott Lang, Patricia Munley,
and Colin D. Stolle, ECF No. 24, is GRANTED and the claims against them are
DISMISSED; the motion to dismiss filed by defendants Bernard T. Booker, Tod Watson,
and Philip "White, ECF No. 32, is GRANTED and the claims against them are DISMISSED;
the motion to dismiss filed by defendant Derek M. Reed, ECF No. 41, is GRANTED and
the claims against him are DISMISSED. Dobson’s motion to amend pleadings, ECF No. 50,
is GRANTED. Any state law.claims raised by Dobson are DISMISSED without prejudice.
The Clerk is directed to send copies of this memorandum opinion and accompanying
order to Dobson and to counsel of record for defendants.
An appropriate order will be entered.
It is so ORDERED.
ENTERED:
\

4/
Michael F. Urbanski
Chief United States District Judge

■*

27

{

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MICHAEL ANTHONY DOBSON,
Plaintiff,
v.
COLIN D. STOLLE, et aL
Defendants.

)
)
)
)
)
)
)

Civil Action No. 7:18cvQ0369
ORDER
By: Robert S. Ballou
United States Magistrate Judge

This matter is before the court upon plaintiffs motion for appointment of counsel in this civil
rights action, pursuant to 42 U.S.C. § 1983. The court cannot require an attorney to represent an
indigent civil plaintiff. See Mallard v. United States D. for S. Dist. of Iowa. 490 U.S. 296, 309
(1989). However, the court may request that an attorney represent an indigent plaintiff when
“exceptional circumstances” exist. Cook v. Bounds. 518 F.2d 779. 780 (4th Cir. 1975). Exceptional
circumstances depend on the type and complexity of the case and the ability of the plaintiff to present
it. Whisenant v. Yuam. 739 F.2d 160, 163 (4th Cir. 19841. abrogated on other grounds by Mallard.
490 U.S. at 309. The court finds that plaintiffs circumstances are not sufficiently exceptional to
justify appointment of counsel at this time, and it is hereby ORDERED that plaintiffs motion for
appointment of counsel:^(ECF No. 49) is DENIED without prejudice. Plaintiff may renew a motion
for appointment of counsel in the event that this case is set for a hearing or trial.
The Clerk shall send a certified copy of this Order to the parties.
ENTER: This 19th

day of December, 2018.

s/Robert S. Ballou
United States Magistrate Judge

Additional material
from this filing is
available in the
Clerk's Office.

